U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

March 11, 2020

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Antico v. United States
S. Ct. No. 19-906

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 21,
2020. The government’s response is now due, after one extension, on March 23, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 22, 2020, within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

NOEL J. FRANCISCO
Solicitor General

cc:

See Attached Service List

19-0906
ANTICO, PHILIP N.
USA

NICOLE NICOLETTE MACE
THE LAW OFFICE OF CURT SANCHEZ, PA
330 CLEMATIS STREET
SUITE 209
WEST PALM BEACH, FL 33401
561-758-5407
NICOLE@NICOLENICOLETTELAW.COM

